-?*■

20=1542
3fn tl)t Supreme Court of tlje Urntetr States

MICHAEL MOGAN,
Petitioner
v.
Jeff Henry, Et Al.
Respondents

On Petition for a Writ of Certiorari to the Court
of Appeal of the State of California,
First Appellate Division

PETITION FOR A WRIT OF CERTIORARI

Michael Mogan
pro se
1439 N. Highland Ave.,
PMB 1116
Los Angeles, CA 90028
(949) 424-5237
mm@michaelmogan.com

FILED
APR 3 0 2021

QUESTIONS PRESENTED
Whether a California Court is permitted to
1.
impose sanctions against an attorney without
violating his rights to Due Process under the 5th and
14th Amendments of the United States Constitution
where the sanctions motion nor trial court order
describe the specific conduct the Appellate Court
stated warranted sanctions.
2.
When a drafting party of an agreement to
arbitrate is in default, do the intentions of the
arbitration provider and considerations of expediency
in the dispute resolution process control instead of the
written terms of an agreement executed by the
parties.
Whether the definition of a prevailing party in
3.
the statutory language of California Code Of Civil
Procedure section 128.7 is unconstitutionally vague
under the 5th and 14th Amendments of the United
States Constitution as applied to Petitioner.

ii
PARTIES TO THE PROCEEDING
Michael Mogan, Petitioner here, was appellant and
objector below. Respondents Jeff Henry, Dave Willner
and Sanan Evrahini were appellees below. Veronica
McCluskey was an Appellant below however she did
not file a petition with the California Supreme Court.
RELATED PROCEEDINGS
No such proceedings exist.

iii

TABLE OF CONTENTS
QUESTIONS PRESENTED............ .....

,1

RELATED PROCEEDINGS

.11

TABLE OF AUTHORITIES

m

OPINIONS BELOW

1

JURISDICTION

1

PERTINENT CONSTITUTIONAL AND
STATUTORY PROVISION................

2

INTRODUCTION

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

6

1. The California Appellate Court’s Decision
Is In Direct Conflict With Supreme Court
Precedent Which has Made Clear The Terms
Of Arbitrating Parties Agreement Are
Controlling Over Considerations Of
Expediency in The Dispute Resolution Process...6
2. Petitioner’s Constitutional Rights To Due Process

Were Violated When The Appellate Court Based
Its Decision On Grounds Not Addressed In
9
Respondents Sanctions Motion,

IV

3. Review Should Be Granted To Determine Whether
The Definition Of A Prevailing Party In The
Statutory Language Of CCP 128.7 Unconstitutionally
Vague Under The 5th and 14th Amendments of the
United States Constitution As Applied To
16
Petitioner
CONCLUSION.

17

APPENDICES
Appendix A, Opinion of the California Court of
Appeal, First Appellate Division (Nov. 2, 2020).......la
Appendix B, Order of the Supreme Court of
California (Feb. 10, 2021)....................................

25a

Appendix C, Order of The San Francisco Trial
Court (Sept. 11, 2019)...........................................

26a

Appendix D, Pertinent Constitutional And
Statutory Provisions.................................

28a

TABLE OF AUTHORITIES
Cases
Brown v. Dillard's, Inc.,
430 F.3d 1004 (9th Cir. 2005)
Cooter Gell u. Hartmarx Corp.,
496 U.S. 384 (1990)...... .
Dent v. West Virginia,
129 U.S. 114 (1889)

11

9

14

V

Dean Witter Reynolds Inc. v. Byrd,
470 U.S. 213 (1985)..............
Doctor's Assocs. v. Casarotto,
517 U.S. 681 (1996)...
First Options of Chicago, Inc. v. Kaplan,
514 U.S. 938 (1995)........................

8
15
2,7

Fuentes v. Shevin,
407 U.S. 67 (1972)

14

Garcia u. Mason Contract Prods.,LLC,
2010 U.S. Dist. LEXIS 92869....

12

Gilmer v. Interstate/ Johnson Lane Corp.,
500 U.S. 20 (1991)..............................

15

Hewitt v. Helms,

482 U.S. 755 (1987)

17

Lifescan, Inc. v. Premier Diabetic Servs.,
363 F.3d 1010 (2004)......................

13

Marie v. Allied Home Mortgage Corp.,
402 F.3d 1 (1st Cir. 2005)..........

12

Mastrobuono v. Shearson Lehman Hutton, Inc.,
514 U.S. 52 (1995)........................................

13

Mitsubishi Motors v. Soler Chrysler-Plymouth,
473 U.S. 614 (1985).....................................

7

vi

Northern Cheyenne Tribe u. Jackson,
433 F.3d 1083 (2006)..............

18

Pre-Paid Legal Services, Inc. v. Cahill,
786 F.3d 1287 (10th Cir. 2015)..

10

Prima Paint Corp. v. Flood Conklin Mfg. Co.,
388 U.S. 395 (1967).................................
Rhodes v. Stewart,
488 U.S. 1(1988)
Roadway Express, Inc. v. Piper,
447 U.S. 752 (1980).........

8

17

9,13

Sink v. Aden Enters., Inc.,
352 F.3d 1197 (9th Cir. 2003)

12

Sole v. Wyner,
551 U.S. 74 (2007)

18

Sovak v. Chugai Pharmaceutical Co.,
280 F.3d 1266 (9th Cir. 2002)...

13

Stanford Junior Univ.,
489 U.S. 468 (1989)

7

Texas State Teachers Ass 'n v. Garland Indep.
Sch. Dist.,
489 U.S. 782 (1989)

17

Tillman v. Tillman,
825 F.3d 1069 (2016)

12

Vll

Volt Info. Scis., Inc. v. Bd. of Trustees of Leland
489 U.S. 468 (1989).....................................
Wolff v. McDonnell,
418 U.S. 539 (1974)
Wolsey, Ltd. v. Foodmaker, Inc.,
144 F.3d 1205 (9th Cir.1998)

7

14

7

CONSTITUTIONAL PROVISIONS
U.S. Const., amend V.

9

U.S. Const., amend XIV.

9

Statutes
9 U.S.C.A. §1

14

9 U.S.C.A. §2.

15

9 U.S.C.A. §3

.passim

Cal. Civ. Pro. §1281.4,
Cal. Civ. Pro. §128.7
Cal. Civ. Pro. § 128.7(c)(1)

10
3,14,18
13

OTHER AUTHORITIES
Restatement (2nd) of Contracts (1981) 241(e)

15

Restatement (2nd),§241(a)

15

PETITION FOR A WRIT OF CERTIORARI
Petitioner Michael Mogan prays that a writ of
certiorari be granted to review the judgment entered
by the California Court of Appeals.
OPINIONS BELOW
The opinion of the California Court of Appeals and the
San Francisco Superior Court in Ms. Veronica
McCluskey’s case is attached to this petition as an
Appendix. The denial of Petitioner Michael Mogan’s
Petition For Review with the California Supreme
Court is attached to this petition as an appendix as
well.
JURISDICTION
The California Supreme Court decision was made on
February 10, 2021. See Appendix. This petition is filed
within 90 days of that date. This Court has
jurisdiction under 28 U.S.C. § 1257.
PERTINENT CONSTITUTIONAL AND
STATUTORY PROVISION
U.S. Const., amend V, U.S. Const., amend XIV, 9
U.S.C.A. §3 and California Code Of Civil Procedure
§128.7.

2
INTRODUCTION
While the California Supreme Court generally
has the final word on issues of California's law on
contract interpretation, the Ninth Circuit binds
California Courts on issues of federal law. Despite this
rule of law, Petitioner was sanctioned by a California
trial court for seeking to lift an arbitration stay after
Respondents defaulted under an arbitration provision
governed by the Federal Arbitration Act and despite
the fact evidence existed Respondents failed to timely
pay their arbitration filing fees. The trial court had
concluded Petitioner’s motion was legally and
factually
frivolous
and Petitioner appealed
contending his arguments were supported by Federal
law and the record that Respondents were in default,
waived their right to arbitrate and that arbitration
had been had in accordance with the agreement to
arbitrate under 9 U.S.CA. 3.
The Appellate Court opinion stated evidence
did exist Respondents failed to timely pay their fees
however the Appellate Court concluded that even
though arbitration proceedings were closed and
Petitioner’s filing fees had even been refunded, since
the American Arbitration Association wanted to
proceed with arbitration proceedings, Petitioner’s
arguments under 9 U.S.C.A. 3 were frivolous.
Respondents sanctions motion and the trial court’s
written order were based entirely on a timely
payment. Furthermore, Federal law interpreting 9
U.S.C.A. 3, and the well settled rule enunciated by
this Supreme Court in First Options of Chicago, Inc.
v. Kaplan (1995) 514 U.S. 938, 947, have made clear
the terms of the parties' agreement are controlling

3
over considerations of expediency in the dispute
resolution process. If this decision is left to stand,
California consumers and employees will now have
less protections then ever when confronted with forced
arbitration in the state of California. Furthermore,
any member of the California bar as well as their
clients can now be sanctioned for seeking relief under
well settled Federal precedent interpreting the
applicability of 9 U.S.C.A. §3 if a breaching party
sends in a late payment after arbitration proceedings
are closed.
Finally, the definition of a prevailing party in
the statutory language of §128.7 is unconstitutionally
vague under the 5th and 14th amendments of the
United States Constitution as applied thus sanctions
were inappropriate. These questions call urgently for
this Court's review and guidance.
STATEMENT OF THE CASE
A. Factual Background
After Respondents failed to pay their
arbitration fifing fees by the final April 5, 2019
deadline established by the American Arbitration
Association (hereafter the “AAA”), on April 9, 2019 the
AAA administratively closed the case and the AAA
refunded Petitioner’s $200 filing fee on April 23, 2019.
On May 1, 2019 the AAA stated it received
Respondents payment as of today on the above matter
however since the proceedings were already
administratively closed, they would not reopen
proceedings unless directed to by Petitioner. On May
9, 2019 the AAA again clarified it did receive

4
Respondents payment, however due to the wire
transfer delay, it was received after the due date.
B. Procedural History
Petitioner filed the amended motion to lift stay
on July 1, 2019 which was denied August 8, 2019.
Respondents sanctions motion included a declaration
from Respondents counsel indicating payment was
made however such evidence was introduced after
Petitioner already filed the amended motion July 1,
2019 and Petitioner also objected to such evidence as
it was inadmissible hearsay. No arbitrator had been
appointed prior to August 8, 2019 as arbitration
proceedings were closed thus an arbitrator never
stated defendants were or were not in default, waiver,
breach or violation of the covenant of good faith and
fair dealing.
The trial court concluded Petitioner’s motion
was legally and factually frivolous but only discussed
default in its written order with no reference to 9
U.SC.A. 3 or Petitioner’s arguments supported by
caselaw under Ninth Circuit or Federal precedent. No
discovery had commenced before the August 8, 2019
hearing either. The trial court stated Petitioner’s
motion had no evidentiary basis however the court did
not specify which arguments lacked an evidentiary
basis. The order also stated Petitioner knew the AAA
had made a clerical error by misapplying defendants'
timely fees and as a result administratively closed the
case.
The Appellate Court concluded evidence did
exist as late as May 9, 2019 that the AAA stated
Respondents arbitration filing fees were late thus the

5
trial court erred. The Appellate Court stated evidence
did exist as late as May 9, 2019 that the AAA stated
Respondents sent in their filing fees late. The
Appellate Court found no evidence that the AAA
stated they had received a timely payment from
Respondents by April 5, 2019 and applied it to the
wrong case. The Appellate Court also found no
evidence that Petitioner was aware the AAA had
made any clerical error and as a result
administratively closed the case.
Despite these factual mistakes, the Appellate
Court deemed the trial court’s factual mistakes
harmless error and concluded Petitioner’s motion was
frivolous since the AAA had informed Petitioner the
arbitration case would be reopened as soon as
Petitioner confirmed intent to proceed. There was no
pending arbitration claim and the AAA had even
refunded Petitioner’s filing fees.
The Appellate Court’s Opinion stated:
“These arguments are premised on the
incorrect assumption that the frivolity decision
was based on a finding that AAA had
administratively closed the case due to its
clerical error.
The order is clear that the trial court’s frivolity
decision was based on its further findings that
by May 1, and again on May 9, AAA informed
counsel the arbitration case would be reopened
as soon as counsel confirmed intent to proceed
— and counsel failed to respond. Consequently,
the trial court’s additional finding that it was

6
AAA’s clerical error that had caused the
administrative closing of the case became
immaterial.”(Opinion p. 17).
Neither Respondents sanctions motion nor the
trial court order nor Appellate Court opinion cited any
legal authority under the FAA why sanctions should
be imposed upon Petitioner if Respondents paid their
fees late. The trial court’s order clearly stated
sanctions were based on a timely payment in stating:
“[i]n fact, as set forth in the order, and as was fully
known to plaintiffs counsel, the [AAA] had made a
clerical error by misapplying defendants' timely fees
and then, as a result, administratively closed the
case.”
REASONS FOR GRANTING THE PETITION
1. The California Appellate Court’s Decision
Is In Direct Conflict With Supreme Court
Precedent Which Has Made Clear The
Terms Of Arbitrating Parties Agreement
Are Controlling Over Considerations Of
Expediency in The Dispute Resolution
Process
The remedies available to parties to arbitration
agreements in California courts under the Federal
Arbitration Act is an important issue of law and the
California Appellate Court’s opinion is in direct
conflict with U.S. Supreme Court and Ninth Circuit
precedent. Miss McCluskey and Airbnb adopted the
FAA—all of it—to govern the arbitration provision

7
thus the FAA controls, including section 3. Although
section 3 may not generally apply to state courts, here
the parties expressly designated the arbitration
proceedings should move forward under the FAA's
procedural provisions rather than California
procedural law. Wolsey, Ltd. v. Foodmaker, Inc., 144
F.3d 1205, 1213 (9th Cir.1998). Section 2 of the FAA
provides that a written arbitration clause “shall be
valid, irrevocable, and enforceable, save upon such
grounds as exist at law or in equity for the revocation
of any contract.” When Respondents failed to pay their
fees and arbitration proceedings were closed there
were grounds to revoke such contract terms under 9
U.S.C.A. §3 as Respondents were in breach of the
agreement.
The Appellate Court’s reasoning that the need for
expediency in arbitration proceedings is controlling instead of
the terms of the parties agreement is not supported by United
States Supreme Court precedent which has made clear that the
terms of the parties' agreement are controlling over
considerations of expediency in the dispute resolution process.
“After all, the basic objective in this area is not to resolve
disputes in the quickest manner possible, no matter what the
parties' wishes [citation], but to ensure that commercial
arbitration agreements, like other contracts, ‘ “are enforced
according to their terms,” ’[citations], and according to the
intentions of the parties [citations] "First Options of Chicago,
Inc. v. Kaplan (1995) 514 U.S. 938, 947; Volt Info. Scis., Inc.
v. Bd. of Trustees of Leland Stanford Junior Uniu., 489
U.S. 468, 479 (1989). The U.S. Supreme Court has
viewed the federal policy served by the FAA as “at
bottom a policy guaranteeing the enforcement of
private contractual arrangements.” Mitsubishi
Motors v. Soler Chrysler-Plymouth, 473 U.S. 614, 625.

8
While Congress was no doubt aware that the
FAA would encourage the expeditious resolution of
disputes, its passage "was motivated, first and
foremost, by a congressional desire to enforce
agreements into which parties had entered." Dean
Witter Reynolds Inc. v. Byrd, 470 U.S. 213, 220 (1985)
Accordingly, this Court has recognized that the FAA
does not require parties to arbitrate when they have
not agreed to do so, see id., at 219 (the Act "does not
mandate the arbitration of all claims"), nor does it
prevent parties who do agree to arbitrate from
excluding certain claims from the scope of their
arbitration agreement, see Mitsubishi Motors Corp. v.
Soler Chrysler-Plymouth, Inc., 473 U.S., at 628 (citing
Prima Paint Corp. v. Flood Conklin Mfg. Co., 388 U.S.
395, 406 (1967). It simply requires courts to enforce
privately negotiated agreements to arbitrate, like
other contracts, in accordance with their terms. See
Prima Paint, supra, at 404, n. 12 (the Act was
designed "to make arbitration agreements as
enforceable as other contracts, but not more so").
The California trial court was only permitted to
enforce a privately negotiated agreements to
arbitrate, like other contracts, in accordance with the
terms McCluskey and Respondents employer Airbnb
Inc. had agreed to but instead the Appellate Court
concluded it was third party arbitration provider’s
preferences to reopen closed arbitration proceedings
which controlled. The AAA had even already refunded
Petitioner’s filing fees and closed the arbitration
proceedings several weeks before Respondent’s paid
their filing fees thus no arbitration proceedings were
pending and the Appellate Court deemed these

9
critical facts immaterial. The Appellate Court’s
decision is in direct conflict with well settled Federal
legal precedent and not only did the Appellate Court
refuse to follow U.S. Supreme Court and Ninth Circuit
precedent, the Appellate Court’s concluded any
attorney who files a motion under 9 U.SC.A. 3 in a
California is subject to sanctions unless an arbitration
provider rebukes a late payment from a breaching
party which is contrary to existing law.
2. Petitioner’s Constitutional Rights To Due
Process Were Violated When The
Appellate Court Based Its Decision On
Grounds Not Addressed In Respondents
Sanctions Motion
Adequate notice that sanctions are being
considered is mandated by statute and the due
process clauses of the 14th Amendment of the United
States Constitution. An award of attorney's fees
implicates interests protected by the Due Process
Clause of the Fifth Amendment. Roadway Express,
Inc. v. Piper, 447 U.S. 752, 767 (1980). The Appellate
Court’s act in imposing sanctions upon Petitioner on
grounds not included in Respondents sanctions
motion violate Petitioner’s due process rights under
the United States Constitution.
Respondent’s sanctions motion also only
addressed one of seven legal arguments by Petitioner
as did the trial court order yet the Appellate Opinion
concluded the entire motion was legally and factually
frivolous without explanation. Petitioner argued on
Appeal that the trial court abused its discretion
because it based its decision on an erroneous view of

10
the law and also on a clearly erroneous assessment of
the evidence, Cooter Gell v. Hartmarx Corp., 496 U.S.
384, 405 (1990) however the Appellate Court failed to
review Petitioner’s legal arguments and factual
contentions in support thereof and did not cite a single
case cited by Petitioner under the FAA yet concluded
his entire amended motion to lift stay was legally and
factually frivolous. The Opinion acknowledges
Petitioner’s legal arguments in summary form but
there is no discussion of Petitioner’s legal precedent
under the FAA or covenant of good faith and fair
dealing. The Opinion stated a legal basis existed
under C.C.P 1281.4 for the trial court to deny
Petitioner’s motion but the trial court order or
Respondents sanctions motion failed to identify any
legal or factual basis why Petitioner should have
withdrawn or corrected any of his arguments under
C.C.P 1281.4.
Petitioner’s legal arguments, by necessity,
starts with the FAA and 9 U.S.C.A. §3, its
interpretation and application by controlling
authority. Petitioner’s default argument was based on
similar facts as in Pre-Paid Legal Services, Inc. v.
Cahill, 786 F.3d 1287, 1294 (10th Cir. 2015), where
the United States Court of Appeals for the Tenth
Circuit rejected an attempt to stay a federal lawsuit
pending arbitration after the arbitrators terminated
the proceeding because of a party’s failure to pay
arbitration fees. In the arbitration proceeding, PrePaid paid its share of the arbitration fees. Id. at 1288.
Cahill did not pay his share, despite repeated
warnings from the AAA that the arbitration
proceeding would be suspended if he failed to make
payment. Id. at 1289. Eventually, the AAA suspended

11
the arbitration proceeding, warning Cahill that the
arbitration proceeding would be terminated if
payment was not received by a specific deadline. Id.
Cahill failed to pay by the deadline. Id. The AAA then
terminated arbitration proceedings. Id. As for the
merits, the court found that the district court correctly
lifted the stay. Id. at 1294. Section 3 of the FAA
provides that courts should enforce arbitration
agreements by staying lawsuits until such arbitration
“has been had in accordance with the terms of the
agreement.” Id. at 1293.(quoting 9 U.S.C.A. §3). Pre­
paid and Cahill’s arbitration agreement provided that
“[a]ll disputes and claims shall be settled totally and
finally by arbitration... .in accordance with the
Commercial Arbitration Rules of the [AAA].” Id. The
court held the arbitration proceeding had “gone as far
as it could,” and Cahill could not continue to maintain
the stay under FAA section 3 after breaching the
arbitration agreement by failing to pay fees as
required by the AAA’s rules. Id. at 1294.
The court alternatively found that the district
court properly lifted the stay because “Cahill was in
default in proceeding with [the] arbitration,” as set
forth in section 3 of the FAA. Id. Cahill did not dispute
that he failed to pay the required fees, but argued that
the arbitration panel never formally made a finding of
default, and the federal courts could not make such a
finding. Id. at 1295. The court disagreed, finding that
the federal courts have authority to interpret the
phrase “default” in section 3. Id. The court also held
that, the arbitrators’ termination of the arbitration
proceeding did constitute a finding of default. Id. at
1297. Thus the AAA’s termination of arbitration
proceedings between McCluskey and Respondents

12
constituted a default under the FAA. See also Brown
v. Dillard's, Inc., 430 F.3d 1004, 1012(9th Cir.
2005)(holding
business
materially
breached
arbitration agreement by refusing to "participate in
properly initiated arbitration proceedings"); see also
Garcia u. Mason Contract Prods.,LLC, 2010 U.S. Dist.
LEXIS 92869.("[TJhis default was.. .an intentional
and/or reckless act because the AAA provided
repeated notices to the Defendant that timely
payment of the fee had not been received.)
Ninth Circuit precedent also made clear
Respondents could not compel McCluskey to arbitrate
her claims a second time. In Sink v. Aden Enters.,
Inc.,352 F.3d 1197, 1201-1202 (9th Cir. 2003) an
arbitrator had already been appointed however the
Court also held the moving party's "failure to pay
required costs of arbitration was a material breach of
its obligations in connection with the arbitration"
such that the moving party could not compel the Court
to return the case to arbitration later.
In Marie v. Allied Home Mortgage Corp., 402
F.3d 1, 3(lst Cir. 2005), the court considered whether
the appellant had “waived” its right to arbitrate due
to inconsistent activity in another litigation forum. Id.
11-13. The court analyzed this waiver issue under §3
because "default" in §3 includes "waiver.'Td. Citing
§3's default language, the First Circuit noted"[t]his
language would seem to place a statutory command
on courts, in cases where a stay is sought, to decide
the waiver issue themselves .Id. In Tillman v. Tillman
the Court stated arbitration was "had" in the sense
that the parties engaged in arbitration until the
arbitrator terminated those proceedings. Tillman u.
Tillman (2016), 825 F.3d 1069, 1075-1076. The

13
arbitration was terminated because the defendants
did not pay the arbitrator's fee. Id. In Lifescan,
Premier and Lifescan, submitted a dispute to
arbitration under the AAA's rules. Lifescan, Inc. v.
Premier Diabetic Servs.(2004), 363 F.3d 1010,1011. As
the AAA's rules allowed the arbitrators to suspend the
proceedings when Lifescan declined to pay Premier's
costs, the Court concluded, "the arbitration ha[d]
proceeded pursuant to the parties' agreement." Id. at
1012.
While the California Supreme Court generally
has the final word on issues of California's law on
contract interpretation, the Ninth Circuit binds
California Courts on issues of federal law. A strong
default presumption exists that the FAA, not state
law, provides the procedural rules for arbitration.
Sovak v. Chugai Pharmaceutical Co., 280 F.3d 1266,
1269 (9th Cir. 2002). However, parties must clearly
evidence their intent to be bound by such rules.
Mastrobuono u. Shearson Lehman Hutton, Inc., 514
U.S. 52, 61—62 (1995). In other words, the strong
default presumption is that the FAA, not state law,
supplies the rules for arbitration. Wolsey, Ltd. v.
Foodmaker, Inc., 144 F.3d 1205, 1213 (9th Cir.1998).
Section 128.7 (c)(1), requires that “[a] motion for
sanctions under this section. . .shall describe the
specific conduct alleged to violate subdivision (b).” The
notice requirements of section 128.7(c)(1) [are]
therefore mandatory, and neither the parties nor the
trial
court
[are]
permitted
to
disregard
them.[Citations.]” An award of attorney's fees
implicates interests protected by the Due Process
Clause of the Fifth Amendment. Roadway Express,
Inc. v. Piper, 447 U.S. 752, 767 (1980).

14
Judicial economy and due process dictate that
the notice under C.C.P. 128.7 should be notice of the
specific conduct that the court views as problematic
yet Appellate Court concluded Petitioner’s entire
amended motion was legally and factually frivolous
although Respondents sanction motion addressed
only one argument which was supported by Federal
law and the record. Adequate notice that sanctions
are being considered is mandated by statute and the
due process clauses of the Fourteenth Amendment of
the United States Constitution however Petitioner
was sanctioned without notice of any specific conduct
that warranted sanctions.
Due process requires that certain basic
procedural protections be afforded before the state
deprives an individual of property. Wolff v. McDonnell
(1974) 418 U.S. 539, 557-558; Fuentes v. Shevin(1972)
407 U.S. 67, 80—81. “Due process requires notice and
hearing before a person's property may be forfeited.”
Id. The right to pursue one's chosen profession free
from arbitrary state interference also is protected by
the due process clauses of the Fourteenth
Amendment. The touchstone of due process is
protection of the individual against arbitrary action of
government, Dent v. West Virginia, 129 U.S. 114, 123
(1889). Due process, fundamental fairness and the
integrity of our judicial system all require that counsel
be permitted to pursue their clients' interests with the
confidence that they will not be singled out at random
for sanctions as Petitioner was here which will also
inhibit the vigor and creativity of advocacy and is an
important issue for all members of the California bar.
Congress enacted the FAA, 9 U.S.C.A. §§1 to 16, to
"reverse the longstanding judicial hostility" towards

15
arbitration agreements and to "place arbitration
agreements upon the same footing as other contracts."
Gilmer v. Interstate/Johnson Lane Corp., 500 U.S. 20,
24(1991). 9 U.S.C.A. §2. A written provision in a
contract evidencing a transaction involving commerce
to settle by arbitration a controversy thereafter
arising out of such contract or transaction shall be
valid, irrevocable, and enforceable, save upon such
grounds as exist at law or in equity for the revocation
of any contract. The FAA preempts state laws that
single out and invalidate arbitration agreements.
Doctor'sAssocs. v. Casarotto (1996), 517 U.S. 681, 687.
In the event of a breach of a material term of an
agreement, the non-breaching party is relieved of its
obligations under the agreement. To determine
whether a breach is material, under the Restatement
(Second) of Contracts (1981), 241(e) implicates the
obligation of good faith and fair dealing that all
contracts impose on the parties through an implied
covenant that neither party shall do anything that
will have the effect of destroying or impairing the
right of the other party to receive the benefits of the
contract.
The failure to advance fees "goes to the essence"
of the agreement and amounts to a material breach.
Restatement (Second),§241(a). Petitioner devoted his
entire energies to McCluskey’s interests throughout
these proceedings but these same issues affect
millions of consumers and employees in California
when confronting forced arbitration. A lawyer’s most
valuable asset is their professional reputation. Fifing
an unmeritorious pleading or motion inevitably
tarnishes that asset. Any attorney whom does not

16
understand this simple truth can be dealt with in
appropriate disciplinary proceedings, state-law
actions for malicious prosecution or abuse of process,
or, in extreme cases, contempt proceedings. It is an
unnecessary waste of judicial resources and an
unwarranted perversion of the California Rules of
Civil Procedure to hold such lawyers liable for
sanctions in action applying rights under the
Federal Arbitration Act in a state court which is
bound by Ninth Circuit precedent. The Appellate
Court failed to apply the proper legal standard and
follow
proper
procedures
in
making
its
determinations. The Appellate Court failed to
consider the merits of Petitioner’s arguments and
made no determination as to whether the trial court
abused its discretion in awarding sanctions yet
sanctions were still affirmed on appeal without the
Appellate Court discussing Petitioner’s legal
arguments and factual record in support thereof.
What is of grave concern is that in a partially
published opinion a California Appellate Court
indicated a member of the California bar can be
sanctioned for arguments supported by 9 U.S.C.A. 3
and the Ninth Circuit solely because an arbitration
provider wanted to reopen closed arbitration
proceedings thus consumer rights are threatened as
well as advocacy by such protections by the entire
California bar.
3. Review Should Be Granted To Determine
Whether The Definition Of A Prevailing Party
In The Statutory Language Of C.C.P 128.7 Is
Unconstitutionally Vague Under The 5th and
14th Amendments of the United States
Constitution As Applied To Petitioner

17
The language of C.C.P §128.7 does not define a
“party prevailing on the motion” nor define categories
of “prevailing parties” thus such language is
unconstitutionally vague under the 5th and 14th
Amendments of the United States Constitution as
applied to Petitioner. The statute was not drawn with
sufficient clarity such that it properly informed
Petitioner of what he must do to avoid a possible
sanction or punishment based on this particular law.
This Court has long estabfished that "[t]he touchstone
of the prevailing party inquiry must be the material
alteration of the legal relationship of the parties.
Texas State Teachers Ass'n v. Garland Indep. Sch.
Dist., 489 U.S. 782, 792-93. The floor in this regard is
provided by the decision in Hewitt v. Helms, 482 U.S.
755 (1987). As this Court noted there, "[r]espect for
ordinary language requires that a plaintiff receive at
least some relief on the merits of his claim before he
can be said to prevail." Id., at 760. Thus, at a
minimum, to be considered a prevailing party, the
plaintiff must be able to point to a resolution of the
dispute which changes the legal relationship between
itself and the defendant. Id., at 760-761; Rhodes u.
Stewart, 488 U.S. 1, 3-4 (1988). Beyond this absolute
limitation, a technical victory may be so insignificant,
and may be so near the situations addressed in Hewitt
and Rhodes, as to be insufficient to support prevailing
party status. The touchstone of the prevailing party
inquiry must be the material alteration of the legal
relationship of the parties in a manner which the
California legislature intended to promote.
The Eighth Circuit has interpreted Buckhannon's
central holding as a "reject[ion of] the 'catalyst

4)

18
theory'," because "to be a prevailing party entitled to
a statutory attorneys' fee award, a party must obtain
a judicially sanctioned material alteration of the legal
relationship of the parties to the lawsuit." Northern
Cheyenne Tribe v. Jackson (2006), 433 F.3d 1083,
1085(citations omitted). "The issue, then, is whether
that judicially sanctioned [rebel] effected the requisite
material alteration in legal relationship to make the
[Plaintiff] prevailing part[y]." Id. There was no
"determination of the 'substantial rights of the
parties,' which Congress determined was a necessary
foundation for departing from the usual rule in this
country that each party is to bear the expense of his
own attorney." Northern Cheyenne Tribe, 433 F.3d at
1086 (quoting Hanrahan v. Hampton (1980), 446 U.S.
754, 758. The stay of all trial court proceedings was in
place before Petitioner filed the amended motion to lift
the stay and there was a stay in place after
Petitioner’s motion was denied thus Respondents did
"leave [] the courthouse emptyhanded" at the end of
the hearing. Sole v. Wyner (2007), 551 U.S. 74, 78.
CONCLUSION
For the foregoing reasons, the petition for a
writ of certiorari should be granted.

19
Date: April 30, 2021
Respectfully submitted,
/

I
Michael Mogfaii
1439 N. Highland Ave.
PMB 1116
Los Angeles, CA 90028
(949) 424-5237
mm@michaelmogan.com

*

APPENDIX

